W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-397

Juan Joe Cano

Texas
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Joseph P. Corcoran

Date:

9/14/21

Digitally signed by Joseph P. Corcoran
Date: 2021.09.14 09:13:16 -05'00'

(Type or print) Name Joseph P. Corcoran
Mr.

Ms.

Mrs.

Firm

Texas Attorney General's Office

Address

P.O. Box 12548 - Capital Station

City & State

Austin, TX

Phone

512-936-1400

Miss

Zip 78711-2548
Email

joseph.corcoran@oag.texas.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Counsel of Record: Randolph L. Schaffer Jr., Randy Schaffer P.C., 1021 Main - Suite 1440, Houston,
TX 77002

